U.S. Department of Justice
Office of the Inspector General




    A Review of the FBI’s Involvement in
       and Observations of Detainee
    Interrogations in Guantanamo Bay,
           Afghanistan, and Iraq




                                       Oversight and Review Division
                                       Office of the Inspector General
                                               October 2009 (Revised)

                                  UNCLASSIFIED
              NOTE REGARDING REVISED VERSION
       The OIG originally issued this report in May 2008. This revised
version, dated October 2009, contains previously classified material that
was redacted in the original version but that was subsequently declassified
by the Department of Defense and the Central Intelligence Agency. The
following pages in this revised edition contain the declassified material,
which is highlighted on those pages, that was previously redacted:

      Pages

      3
      21
      35-36
      41
      43
      61-62
      68-70
      74
      96-97
      100-101
      216
      226-227
      233
      256
      284
      288
      318-320
      323
      328
      330
      332
      341
      351
      361
      369
[Page Intentionally Left Blank]
[Page Intentionally Left Blank]
[Page Intentionally Left Blank]
                                                                            COUNTERTERRORISM

                                                                         Executive
                                                                                              ASSISTANT
                                                                           Staff




            OPS I                                               OPS II




                                             WMD
ITOS I                 ITOS II                                    CXS                 TFOS
                                             DTOS


            ETIU                  Global            Domestic             Document             Radical
                                    Op              Terrorism               Exp                Fund
                                   Unit             Ops Unit               Unit                Unit I

          CONUS I                Palestine           WMD                   Com                Radical
                                    Rej          Unconv Threats           Analysis             Fund
                                   Unit             Ops Unit               Unit               Unit II

          CONUS II                 Iran               WMD                  Elect              Global
                                 Hizballah          Counter-               Com               Extremist
                                   Unit           Measures Unit            Unit

         CONUS III                 Iraq               WMD                    CT              Financial
                                  Syria                IT                Elsur Ops             Intel
                                  Lybia               Unit                  Unit

         CONUS IV                                    Special                                  Program
                                                     Events                                 Coordiantion
                                                      Unit                                 and Managment

          Arabian                                                                          Proactive Data
         Peninsula                                                                          Exploitation
                                                                                                Unit

            CT
          Humint
         Operations


         Stand Alone      RFU Team         Domestic Team     Global Extremist        WMD



                                                      B-4
DIVISION

DIRECTOR

                                                                                                   TSC


                                                               Operations
            Analytical
                                                                Support                          FTTTF




   CT                                                                                 Threat
                                             Admin                 Response
 Analysis                TRRS                                                         Center
                                             Section                Section
 Section                                                                              Section

            Domestic              Radical         Admin Mngt &             Military                CT
             Sunni                 Fund             Secuirty                Liaison               Watch
                                    DU                Unit               Detainee Unit

              Shia               Global ME        Budget Coord                NJTTF               TWWU
              ME                 Expremist          & Supply
                                    DU                Unit

            Foreign                WMD              Cont Edu                   Fly               Threat
             Links              Domestic DU        Prof Develop               Team               Monit
             Global                                    Unit                                       Unit

        Domestic                 Financial        Asset Vetting                               Public
        Terrorism                 DOCEX              Review                                Access Center
       Analysis Unit                DU                Unit                                     Unit

              WMD                                        CTD                                      Threat
              ETIU                                     Detailees                                Resolution
                                                                                                   Unit

                                                                                                Terrorist
                                                                                                 SC Ops
                                                                                                  Unit




                                                                                         7 JAN 2005




                                                       B-5
[Page Intentionally Left Blank]
[Page Intentionally Left Blank]
